TREASURY INSPECTOR GENERAL FOR TAX ADMINISTRATION




                       Fiscal Year 2010 Statutory Audit of
                      Compliance With Notifying Taxpayers
                       of Their Rights When Requested to
                         Extend the Assessment Statute



                                         August 25, 2010

                              Reference Number: 2010-30-103




 This report has cleared the Treasury Inspector General for Tax Administration disclosure review process
  and information determined to be restricted from public release has been redacted from this document.


 Redaction Legend:
 1 = Tax Return/Return Information



 Phone Number | 202-622-6500
 Email Address | inquiries@tigta.treas.gov
 Web Site      | http://www.tigta.gov
                                                 HIGHLIGHTS


FISCAL YEAR 2010 STATUTORY AUDIT                     their rights to refuse to extend the period of
OF COMPLIANCE WITH NOTIFYING                         limitations or to limit such extension to a
TAXPAYERS OF THEIR RIGHTS WHEN                       particular issue or to a particular period of time.
REQUESTED TO EXTEND THE                              The percentage of case files without
                                                     documentation decreased from Fiscal Year 2006
ASSESSMENT STATUTE
                                                     to Fiscal Year 2010.
                                                     For Fiscal Year 2010, taxpayer files for
Highlights                                           five (five percent) of the 111 taxpayers in our
                                                     statistical sample did not contain sufficient
Final Report issued on August 25, 2010               documentation to indicate whether taxpayers
                                                     were advised of their rights before consenting to
Highlights of Reference Number: 2010-30-103          extend the time to assess tax. In all five
to the Internal Revenue Service Deputy               taxpayer cases, the taxpayer’s representative
Commissioner for Services and Enforcement.           signed Consent to Extend the Time to Assess
                                                     Tax (Form 872) or Consent to Extend the Time
IMPACT ON TAXPAYERS                                  to Assess Employment Taxes (Form SS-10),
The Internal Revenue Service (IRS) is required       both of which contain a statement detailing the
to notify taxpayers of their rights when             taxpayer’s rights regarding extending the
requesting an extension of the statute of            assessment statute of limitation. However, there
limitations for assessing additional taxes and       was no evidence in the case files that the
penalties. In passing this law, Congress             taxpayers themselves were advised of their
expressed concern that taxpayers were not            rights, as required by IRS procedures.
being advised adequately of their rights to refuse   In addition, our sample included **1** taxpayers’
to extend the statute of limitations or to request   files containing authorizations for third-party
that a statute extension be limited to specific      representation. Our review found that
issues or a specific period. Based on the results    **1** (2.67 percent) of the **1** taxpayers’ files did
of our review, TIGTA believes the IRS is             not contain sufficient documentation that the
complying with the intent of the statute.            taxpayers’ representatives were provided with
However, there were still some instances in          the required notifications. For these taxpayers,
which IRS employees did not document whether         IRS management officials informed us that some
taxpayers or their representatives were advised      employees may have overlooked the fact that
of these rights. Taxpayers might be adversely        the required information was not documented in
affected if the IRS does not follow requirements     the case file or the documents were separated
to notify both the taxpayers and their               from the case files.
representatives of the taxpayers’ rights related
to statute extensions.                               WHAT TIGTA RECOMMENDED
WHY TIGTA DID THE AUDIT                              TIGTA did not make any recommendations in
                                                     this report. However, a draft of the report was
TIGTA is required by law to annually determine       provided to the IRS for review and comment.
whether the IRS complied with Internal Revenue       The IRS did not have any written comments in
Code Section 6501(c)(4)(B). This requires the        response to the report.
IRS to notify taxpayers of their rights to decline
to extend the assessment statute of limitations
or to request that any extension be limited to
specific issues or a specific period of time.
WHAT TIGTA FOUND
Over the past five fiscal years, the IRS has
improved its compliance with requirements for
documenting that taxpayers were informed of
                                                    DEPARTMENT OF THE TREASURY
                                                         WASHINGTON, D.C. 20220




TREASURY INSPECTOR GENERAL
  FOR TAX ADMINISTRATION




                                                    August 25, 2010


 MEMORANDUM FOR DEPUTY COMMISSIONER FOR SERVICES AND
                ENFORCEMENT

 FROM:                          Michael R. Phillips
                                Deputy Inspector General for Audit

 SUBJECT:                       Final Audit Report – Fiscal Year 2010 Statutory Audit of Compliance
                                With Notifying Taxpayers of Their Rights When Requested to Extend
                                the Assessment Statute (Audit # 201030010)

 This report presents the results of our review to determine whether the Internal Revenue Service
 (IRS) was complying with Internal Revenue Code Section 6501(c)(4)(B), which requires that the
 IRS provide notice to taxpayers of their rights to decline to extend the assessment statute of
 limitations or to request that any extension be limited to specific issues or a specific period of
 time. The Treasury Inspector General for Tax Administration is statutorily required to provide
 information annually regarding the IRS’ compliance with this provision. 1 We are also required
 to include the results in one of our Semiannual Reports to Congress. This is our eleventh review
 of the IRS’ compliance with the statute extension provisions of the law.
 Although we made no recommendations in this report, we did provide IRS officials an
 opportunity to review the draft report. The IRS did not have any written comments in response
 to the report.
 Copies of this report are also being sent to the IRS managers affected by the report results.
 Please contact me at (202) 622-6510 if you have questions or Margaret E. Begg, Assistant
 Inspector General for Audit (Compliance and Enforcement Operations), at (202) 622-8510.




 1
     Internal Revenue Code Section 7803(d)(1)(c).
                                   Fiscal Year 2010 Statutory Audit of Compliance
                                   With Notifying Taxpayers of Their Rights When
                                    Requested to Extend the Assessment Statute




                                            Table of Contents

Background ..........................................................................................................Page 1

Results of Review ...............................................................................................Page 4
          The Internal Revenue Service Has Shown Improvement in
          Documenting That Taxpayers Were Informed of Their Rights....................Page 4
          Some Case Files Did Not Have Documentation That Taxpayers’
          Representatives Were Provided With Copies of the Notification of
          Taxpayer Rights ............................................................................................Page 5

Appendices
          Appendix I – Detailed Objective, Scope, and Methodology ........................Page 7
          Appendix II – Major Contributors to This Report ........................................Page 9
          Appendix III – Report Distribution List .......................................................Page 10
          Appendix IV – Outcome Measures...............................................................Page 11
          Appendix V – Prior Audit Reports ...............................................................Page 14
          Appendix VI – Case Review Results by Division ........................................Page 16
         Fiscal Year 2010 Statutory Audit of Compliance
         With Notifying Taxpayers of Their Rights When
          Requested to Extend the Assessment Statute




                 Abbreviations

FY         Fiscal Year
I.R.C.     Internal Revenue Code
IRS        Internal Revenue Service
RRA 98     Restructuring and Reform Act of 1998
                              Fiscal Year 2010 Statutory Audit of Compliance
                              With Notifying Taxpayers of Their Rights When
                               Requested to Extend the Assessment Statute




                                            Background

The Internal Revenue Service (IRS) is required by the IRS Restructuring and Reform Act of
1998 (RRA 98) 1 and the Internal Revenue Code (I.R.C.) 2 to advise taxpayers of their rights when
requesting an extension of the statute of limitations for
the assessment of additional taxes and penalties. When
the IRS audits a tax return and determines that there is            The IRS is required to
an additional tax liability, the additional tax assessment     advise taxpayers of their rights
must generally be processed within 3 years from the date       when requesting an extension
the return was due or from the date on which the return          of the statute of limitations
                                                                    for the assessment of
was actually filed, whichever is later. This 3-year            additional taxes and penalties.
assessment statute of limitations normally cannot be
extended without the taxpayer’s written consent. 3 To
extend the statute, the IRS generally requests that the taxpayer(s) provide a signed consent form,
either Consent to Extend the Time to Assess Tax (Form 872) or Consent to Extend the Time to
Assess Employment Taxes (Form SS-10). 4
These consents extend the assessment statute of limitations to either a specific period of time or
an unlimited, indefinite period. The statute is usually extended for a period that both the IRS and
the taxpayer agree is reasonable to complete the examination. The consent can also be
negotiated to apply only to certain audit issues.
In passing the RRA 98, Congress expressed concern that taxpayers had not always been fully
aware of their rights to refuse to extend the statute of limitations or to request that a statute
extension be limited to specific issues or a specific period of time. Some taxpayers might
believe that they are required to agree to an extension upon the request of the IRS. Congress
wanted to ensure that taxpayers were informed of their rights to refuse the proposed statute
extension or to have it limited.




1
  RRA 98 Section (§) 3461(b)(2)(B), Pub. L. No. 105-206, 112 Stat. 685 (codified as amended in scattered sections
of 2 U.S.C., 5 U.S.C. app., 16 U.S.C., 19 U.S.C., 22 U.S.C., 23 U.S.C., 26 U.S.C., 31 U.S.C., 38 U.S.C., and
49 U.S.C.).
2
  I.R.C. § 6501(c)(4)(B).
3
  There are some exceptions to the 3-year statute of limitations. For example, I.R.C. § 6501(c)(1) extends the
assessment statute indefinitely when false or fraudulent returns are filed.
4
  IRS employees who most often request assessment statute extensions are examiners in the various Examination
functions of the business divisions and appeals officers in the Office of Appeals.
                                                                                                          Page 1
                                  Fiscal Year 2010 Statutory Audit of Compliance
                                  With Notifying Taxpayers of Their Rights When
                                   Requested to Extend the Assessment Statute



A taxpayer might agree to extend the assessment statute of limitations for the following reasons:
       •   The taxpayer might want to pursue additional audit issues that are in the taxpayer’s favor
           in offsetting a proposed tax assessment or that might allow for a tax refund.
       •   If the remaining time before the statute expires is too short, the IRS might have to
           prematurely stop the audit process and issue a notice of deficiency that limits the time for
           the normal appeals process before the taxpayer must file a petition with the United States
           Tax Court.
A taxpayer might decide to limit or refuse to extend the assessment statute of limitations
because:
       •   The taxpayer might not want to provide the IRS more time to consider additional audit
           issues.
       •   The taxpayer might not want to allow the IRS the opportunity to further develop audit
           issues already under consideration after the normal statute period has expired.
RRA 98 Section (§) 3461(b)(2)(B) requires the IRS to “…notify the taxpayer of the taxpayer’s
right to refuse to extend the period of limitations, or to limit such extension to particular issues or
                                         to a particular period of time, on each occasion when the
                                         taxpayer is requested to provide such consent.” To
           The RRA 98 requires
       taxpayers to be informed of       implement this statutory requirement, the IRS revised its
    their rights to refuse to extend     procedures to direct IRS employees to provide the
     the period of limitations or to     taxpayer with a Request to Extend Assessment Statute
     limit the extension to specific     (Letter 907) or Letter Transmitting Consent Extending
        issues or a period of time.      Period of Limitation (Letter 967). Included with these
                                         Letters should be the actual consent forms to be signed and
Extending the Tax Assessment Period (Publication 1035). In addition, Federal regulations
require that any notice or other written communication required to be given to a taxpayer should
also be given to the taxpayer’s representative (unless restricted by the taxpayer). 5 IRS
employees are instructed to document in their case file activity log whether the taxpayer was
notified of his or her rights each time the IRS requested an assessment statute extension.
The Treasury Inspector General for Tax Administration is required by the RRA 98 to provide
information annually regarding the IRS’ compliance with I.R.C. § 6501(c)(4)(B). This report
presents the results of our eleventh annual review of the IRS’ compliance with the statute
extension provisions of the law. 6 As in the previous 10 reports, we continued to identify some
noncompliance with procedures because documentation was not adequate to support that
taxpayers were advised of their rights. However, compliance has improved since the IRS revised

5
    26 C.F.R. § 601.506 (2002).
6
    See Appendix V for a list of our prior reports.
                                                                                                Page 2
                             Fiscal Year 2010 Statutory Audit of Compliance
                             With Notifying Taxpayers of Their Rights When
                              Requested to Extend the Assessment Statute



the various consent forms and incorporated them into guidelines in response to our Fiscal
Year (FY) 2004 report. 7
The consent forms were revised to include a prominent statement informing taxpayers of their
rights regarding assessment statute extensions and to provide information about
Publication 1035. In addition, as shown in Figure 1, the revised consent forms include a
statement for the taxpayers’ representatives to sign, confirming they were notified of their rights
regarding assessment statute extensions and the taxpayers were made aware of the same rights.
                                Figure 1: Excerpt From Form 872




Note: The wording in the Form SS-10 is consistent with that shown in Form 872.
Source: IRS Form 872.

This review was performed at the Office of Appeals Headquarters, Large and Mid-Size Business
Division Headquarters, Small Business/Self-Employed Division Headquarters, and Tax Exempt
and Government Entities Division Headquarters in Washington, D.C., during the period
November 2009 through May 2010. We conducted this performance audit in accordance with
generally accepted government auditing standards. Those standards require that we plan and
perform the audit to obtain sufficient, appropriate evidence to provide a reasonable basis for our
findings and conclusions based on our audit objective. We believe that the evidence obtained
provides a reasonable basis for our findings and conclusions based on our audit objective.
Detailed information on our audit objective, scope, and methodology is presented in Appendix I.
Major contributors to the report are listed in Appendix II.

7
 Fiscal Year 2004 Statutory Audit of Compliance With Notifying Taxpayers of Their Rights When Requested to
Extend the Assessment Statute (Reference Number 2004-40-108, dated June 9, 2004).
                                                                                                       Page 3
                                            Fiscal Year 2010 Statutory Audit of Compliance
                                            With Notifying Taxpayers of Their Rights When
                                             Requested to Extend the Assessment Statute




                                                 Results of Review

The Internal Revenue Service Has Shown Improvement in
Documenting That Taxpayers Were Informed of Their Rights
Over the past 5 fiscal years, the IRS has improved its compliance with requirements for
documenting that taxpayers were informed of their rights to refuse to extend the period of
limitations or to limit such extension to particular issues or to a particular period of time.
Specifically, as shown in Figure 2, the percentage of case files without required documentation
decreased from FY 2006 to FY 2010.
                                             Figure 2: Error Rate of Taxpayers
                                          Who Were Not Directly Informed by the IRS

                                     20
             Error Rate Percentage




                                     15

                                     10

                                     5

                                     0
                                          2006       2007        2008       2009       2010
                                                              Fiscal Year


           Source: Prior Treasury Inspector General for Tax Administration audit reports (see Appendix V).

For FY 2010, case files for 5 (5 percent) of the 111 taxpayers in our statistical sample did not
contain sufficient documentation to indicate whether the IRS directly advised taxpayers of their
rights before consenting to extend the time to assess tax. In each of the five taxpayer cases, the
taxpayer’s representative signed Form 872 or Form SS-10, both of which contain a statement
detailing the taxpayer’s rights regarding extending the assessment statute of limitations.
However, there was no evidence in the case files documenting that the taxpayers themselves
were advised of their rights.
IRS procedures state that when a taxpayer asks the IRS to work with his or her representative,
IRS employees should do so exclusively. However, IRS procedures also require employees to
provide copies of any correspondence with the representative to the taxpayer. Specifically, the
Internal Revenue Manual states that “…notification must be made to the taxpayer…and the
taxpayer’s representative…”

                                                                                                       Page 4
                                    Fiscal Year 2010 Statutory Audit of Compliance
                                    With Notifying Taxpayers of Their Rights When
                                     Requested to Extend the Assessment Statute



The notification process is also explained in Practice Before the IRS and Power of Attorney
(Publication 947), in which the IRS informs the taxpayer:
            If you have a recognized representative, you and the representative will receive notices
            and other correspondence from the IRS. . . . the IRS will send your representative(s) a
            duplicate of all computer-generated correspondence that is sent to you. . . . The IRS
            employee handling the case is responsible for ensuring that the original and any
            requested copies of each manually-generated [sic] correspondence are sent to you and
            your representative(s) in accordance with your authorization.
Although notification to the taxpayer’s representatives appears to meet the intent of the law, the
failure to notify both the taxpayer and the representatives does violate the IRS’ internal
procedures. IRS procedures and publications are clear that the expectation is for both the
taxpayer and the taxpayer’s representative to receive notices, including notification of the
taxpayer’s rights. Based on our sample results, from the population of 5,321 taxpayers with
statute extensions, we projected that documentation for 132 taxpayers81 was not adequate to show
that taxpayers were directly advised of their rights by the IRS. We considered that employees
had advised taxpayers of their rights if any of the required documentation appeared to have been
given to the taxpayers or a log entry to that effect was found in the related case files. The fact
that we could not identify the required documentation in the case file does not mean the taxpayer
was not informed of his or her rights. It means that, from the information available to us, we
could not determine if the taxpayer was informed directly by the IRS.
Taxpayer rights could be negatively affected if the IRS does not comply with the procedures
requiring that taxpayers be directly notified of their rights related to extensions to the assessment
statute of limitations. However, because we identified no legal violations and the number of
procedural violations was relatively small, we are making no recommendations.

Some Case Files Did Not Have Documentation That Taxpayers’
Representatives Were Provided With Copies of the Notification of
Taxpayer Rights
While IRS employees had documented that the taxpayers were informed of their rights and the
taxpayers had signed the extensions, there were still instances in which IRS employees did not
document that the taxpayer’s representative was properly advised of the taxpayer’s rights.
The IRS has generally improved over the years in documenting that taxpayers’ representatives
were informed of the taxpayers’ rights to refuse to extend the statute of limitations or to limit it.
Figure 3 shows there was a slight increase in the error rate in FY 2009 but the error rate
decreased for FY 2010.


81
     See Appendix IV for details.
                                                                                               Page 5
                                             Fiscal Year 2010 Statutory Audit of Compliance
                                             With Notifying Taxpayers of Their Rights When
                                              Requested to Extend the Assessment Statute



     Figure 3: Error Rate – No Documentation That Representative Was Informed



                                      14
              Error Rate Percentage




                                      12
                                      10
                                       8
                                       6
                                       4
                                       2
                                       0
                                           2006      2007       2008       2009            2010
                                                             Fiscal Year

           Source: Prior Treasury Inspector General for Tax Administration audit reports (see Appendix V).

In our sample of 111 taxpayers, **1** taxpayers’ files contained authorizations for third parties to
represent the taxpayers before the IRS. For these **1** taxpayers, **1** (2.67 percent) files did not
contain any documentation supporting that the taxpayers’ representatives were provided with the
required notifications. From an estimated population of 1,553 taxpayers with authorized
representatives, we estimated that 41 taxpayers’ files92 were not adequately documented to show
that the representatives were notified in advance of taxpayer rights or given copies of written
communications advising taxpayers of their rights. For these taxpayers, IRS management
officials informed us that some employees may have overlooked the fact that the required
information was not documented in the taxpayers’ files or the documents were separated from
the taxpayers’ files.
Federal regulations require that once a taxpayer representative has been recognized as such, he or
she must be given copies of all correspondence issued to the taxpayer. This applies to all
computer-generated or manually generated notices or other written communications. Without
the required documentation, we could not determine if the IRS properly notified the taxpayers’
representatives in these two cases. Taxpayers might be adversely affected if the IRS does not
follow requirements to notify both the taxpayers and their representatives of the taxpayers’ rights
related to statute extensions. However, because the number of errors was relatively small and
notifications to taxpayer’s representatives have shown improvement, we are not making any
recommendations.


92
  Based on an estimated population of 1,553, we are 95 percent confident that between 5 and 145 taxpayers’ files
were not documented to show that taxpayers’ representatives were given notification advising taxpayers of their
rights regarding assessment statute extensions. See Appendix IV for additional details.
                                                                                                           Page 6
                              Fiscal Year 2010 Statutory Audit of Compliance
                              With Notifying Taxpayers of Their Rights When
                               Requested to Extend the Assessment Statute



                                                                                                Appendix I

         Detailed Objective, Scope, and Methodology

Our overall audit objective was to determine whether the IRS was complying with
I.R.C. § 6501(c)(4)(B), which requires that the IRS provide notice to taxpayers of their rights to
decline to extend the assessment statute of limitations or to request that any extension be limited
to specific issues or a specific period of time. To accomplish this objective, we:
I.      Determined whether taxpayers were being advised of their rights when the IRS requested
        an extension of the assessment statute.
        A. Reviewed Internal Revenue Manual, memoranda, and IRS guidelines to determine
           whether there had been any changes to existing policies and procedures for
           processing requests to extend the assessment statute of limitations since our last audit.
        B. Identified a population of 5,321 1 unique taxpayers from the combined Business
           Master File and Individual Master File 2 with closed examinations for which the
           assessment statute was extended. The period for the Individual Master File and
           Business Master File cases was from January 1 through June 30, 2009. We validated
           the Business Master File and the Individual Master File data by examining a random
           sample of 50 (25 from each Master File extract) of the 5,321 taxpayers. This random
           sample was used for data validation and not for projecting or reporting results.
        C. The validation test results demonstrated that the data were reliable and could be used
           to meet the objective of this audit. We developed a statistical sampling plan using a
           95 percent confidence level, an expected error rate of 8 percent, and a precision of
           ±5 percent, which resulted in a minimum sample size of 111 taxpayers (closed cases).
           A statistical sample was taken because we wanted to estimate the number of tax
           returns in the population for which taxpayer rights were potentially affected.
        D. We randomly selected 400 taxpayer cases from the population identified in
           Step I.B. We over selected our sample to make sure that we received enough cases




1
  We obtained a total of 7,343 tax periods representing 5,321 unique taxpayers for which the assessment statutes
were extended. We used 5,321 as our population to select our random sample to prevent the review of duplicate
taxpayers because the 7,343 included some taxpayers with multiple tax periods with extended statutes.
2
  The Business Master File is the IRS database that consists of Federal tax-related transactions and accounts for
businesses. These include employment taxes, income taxes on businesses, and excise taxes. The Individual Master
File is the IRS database that maintains transactions or records of individual tax accounts.
                                                                                                          Page 7
                                Fiscal Year 2010 Statutory Audit of Compliance
                                With Notifying Taxpayers of Their Rights When
                                 Requested to Extend the Assessment Statute



             that met our criteria. 3 We screened these cases until we obtained our valid sample of
             111 unique taxpayers.
         E. Reviewed the 111 selected taxpayer’s returns and related case files for the necessary
            documentation to verify whether taxpayers and their representatives, if applicable,
            were properly advised of their rights regarding assessment statute extensions and
            whether the revised consent forms were used in the process.
         F. Discussed exceptions identified with management officials of the IRS business unit or
            function that had requested the extension for concurrence or an explanation of why
            the IRS believed that proper procedures were followed.
Internal controls methodology
Internal controls relate to management’s plans, methods, and procedures used to meet their
mission, goals, and objectives. Internal controls include the processes and procedures for
planning, organizing, directing, and controlling program operations. They include the systems
for measuring, reporting, and monitoring program performance. We determined the following
internal controls were relevant to our audit objective: the policies, procedures, and practices
used by the Office of Appeals, Large and Mid-Size Business Division, Small Business/
Self-Employed Division, and Tax Exempt and Government Entities Division as they relate to
notifying taxpayers of their rights to decline to extend the assessment statute of limitations or to
request that any extension be limited to specific issues or a specific period of time. We evaluated
these controls by reviewing applicable manuals and documentation, interviewing management
from these functions, and reviewing a statistical sample of 111 taxpayer cases.




3
  No consent form is required for a return that has the statute date extended for procedural issues. Our criteria
required a signed consent form to be a valid sample case.
                                                                                                               Page 8
                        Fiscal Year 2010 Statutory Audit of Compliance
                        With Notifying Taxpayers of Their Rights When
                         Requested to Extend the Assessment Statute



                                                                             Appendix II

                 Major Contributors to This Report

Margaret E. Begg, Assistant Inspector General for Audit (Compliance and Enforcement
Operations)
Carl Aley, Director
Phyllis Heald London, Audit Manager
Lynn Wofchuck, Audit Manager
Cristina Johnson, Lead Auditor
Doris Cervantes, Senior Auditor
Mike Della Ripa, Senior Auditor
Joseph Snyder, Senior Auditor
Lauren Bourg, Auditor




                                                                                      Page 9
                        Fiscal Year 2010 Statutory Audit of Compliance
                        With Notifying Taxpayers of Their Rights When
                         Requested to Extend the Assessment Statute



                                                                            Appendix III

                         Report Distribution List

Commissioner C
Office of the Commissioner – Attn: Chief of Staff C
Commissioner, Large and Mid-Size Business Division SE:LM
Commissioner, Small Business/Self-Employed Division SE:S
Commissioner, Tax Exempt and Government Entities Division SE:T
Chief, Appeals AP
Chief Counsel CC
Deputy Commissioner, Large and Mid-Size Business Division SE:LM
Deputy Commissioner, Small Business/Self-Employed Division SE:S
Deputy Commissioner, Tax Exempt and Government Entities Division SE:T
Director, Communications and Liaison, Tax Exempt and Government Entities Division
SE:T:CL
Director, Communications, Liaison, and Disclosure, Small Business/Self-Employed Division
SE:S:CLD
Director, Examination, Small Business/Self-Employed Division SE:S:E
Director, Exempt Organizations, Tax Exempt and Government Entities Division SE:T:EO
Director, Field Specialists, Large and Mid-Size Business Division SE:LM:FS
Director, Communication and Liaison, Large and Mid-Size Business Division SE:LM:M:CL
National Taxpayer Advocate TA
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Internal Control OS:CFO:CPIC:IC
Audit Liaisons:
       Commissioner, Large and Mid-Size Business Division SE:LM:CL
       Commissioner, Small Business/Self-Employed Division SE:COM
       Commissioner, Tax Exempt and Government Entities Division SE:T:CL
       Chief, Appeals AP:TP:SS




                                                                                    Page 10
                              Fiscal Year 2010 Statutory Audit of Compliance
                              With Notifying Taxpayers of Their Rights When
                               Requested to Extend the Assessment Statute



                                                                                              Appendix IV

                                    Outcome Measures

This appendix presents detailed information on the measurable impact that our current findings
will have on tax administration. These benefits will be incorporated into our Semiannual Report
to Congress.

Type and Value of Outcome Measure:
•   Taxpayer Rights and Entitlement – Potential; 132 estimated taxpayers whose related case
    files did not contain adequate documentation to show that the taxpayers were directly advised
    of their rights by the IRS when assessment statutes were extended (see page 4).

Methodology Used to Measure the Reported Benefit:
To determine the number of taxpayers for which documentation was not adequate to support that
the taxpayers were advised of their rights, we electronically identified 5,321 1 unique taxpayers
from the universe of Business Master File and Individual Master File 2 closed cases in which the
assessment statute was extended. The time period was January 1 through June 30, 2009. We
used a 95 percent confidence level, an expected error rate of 8 percent, and a ±5 percent
precision to determine our sample size of 111 taxpayers
Because of the difficulty we encountered with obtaining the associated case files for some of
these returns, we requested tax returns for 400 taxpayers for which the assessment statute was
extended. This enabled us to obtain entire case files (more than one tax period if necessary) for
each taxpayer. After screening through files for 400 taxpayers having at least 1 tax period with
an extended statute and selecting 1 tax period for each taxpayer, we met our sample size of
111 taxpayers with complete case files that met our criteria. Some of the cases that we screened
did not meet the criteria for a Consent to Extend the Time to Assess Tax (Form 872) and we
needed to eliminate 91 taxpayers. 3 Some other cases did not have complete documentation
although they met our criteria.


1
  We obtained a total record of 7,343 tax periods representing 5,321 unique taxpayers for which the assessment
statutes were extended. We used 5,321 as our population to select our random sample to prevent the review of
duplicate taxpayers because the 7,343 included some taxpayers with multiple tax periods with extended statutes.
2
  The Business Master File is the IRS database that consists of Federal tax-related transactions and accounts for
businesses. These include employment taxes, income taxes on businesses, and excise taxes. The Individual Master
File is the IRS database that maintains transactions or records of individual tax accounts.
3
  No consent form is required for a return that has the statute date extended for procedural issues. Our criteria
required a signed consent form to be a valid sample case.
                                                                                                         Page 11
                               Fiscal Year 2010 Statutory Audit of Compliance
                               With Notifying Taxpayers of Their Rights When
                                Requested to Extend the Assessment Statute



We reviewed the sample of 111 taxpayer case files to determine if taxpayers were advised of
their rights and identified 5 (5 percent) taxpayers for whom the required documentation was not
found. This was the exception rate. However, since we had excluded 91 taxpayer case files that
were received but did not meet our criteria, we needed to account for those returns when
projecting to the population. As a result, we added those back to the 111 to get to 202 taxpayers.
We then took the 5 exceptions and divided by 202 cases (2.48 percent) and used that percentage
to project to the population. We then multiplied the 2.48 percentage by the population to project
the total number of taxpayers whose case files did not have sufficient documentation
(5,321 * 2.48 percent = 132 taxpayers). The range of lower and upper limits was then calculated
using the actual error rate, the actual precision of 2 percent with a 95 percent confidence level. 4

Type and Value of Outcome Measure:
•   Taxpayer Rights and Entitlements – Potential; 41 taxpayers whose related case files were not
    documented to show that the taxpayers’ representatives were given copies of the written
    communications advising taxpayers of their rights regarding assessment statute extensions
    (see page 5).

Methodology Used to Measure the Reported Benefit:
To determine the number of taxpayers for which documentation was not adequate to support that
the taxpayers’ representatives were advised of the taxpayers’ rights, we used the same sample of
111 taxpayers and identified **1** taxpayer case files that contained an authorization for a third
party to represent the taxpayer before the IRS. In **1** (2.67 percent) of the **1** taxpayer case files,
there was no documentation that employees provided the representatives with a copy of the
written communications provided to the taxpayers.
The data we received on the 5,321 taxpayer population did not contain sufficient information to
identify the number of cases that had representatives in the population. Therefore, we had to
estimate the size of the population of taxpayers that had authorized third-party representatives.
This was accomplished by dividing the number of taxpayers in our sample with declarations of
representation by the total tax returns screened for which the assessment statute was executed by
consent (**1** = 29.18 percent) and then multiplying this percentage by the population to
estimate the number of tax returns for which the assessment statute was executed by consent and
had a declaration of representation (5,321 * 29.18 percent = 1,553 taxpayers). Using the
estimated population, we projected the reported error rate (1,553 taxpayers * 2.67 percent =




4
  This projection is an estimate of the number of exception cases in the population. We are 95 percent confident that
the range is between 20 and 244 taxpayers based on a 2.48 percent error rate and 2 percent precision.
                                                                                                           Page 12
                               Fiscal Year 2010 Statutory Audit of Compliance
                               With Notifying Taxpayers of Their Rights When
                                Requested to Extend the Assessment Statute



41 taxpayers). 5 The projection was calculated using valid statistical formulas to determine the
variable range of total error returns.




5
  This projection is an estimate of the number of exception cases in the population. We are 95 percent confident that
the range is between 5 and 145 taxpayers based on a 2.67 percent error rate and 4 percent precision.
                                                                                                           Page 13
                        Fiscal Year 2010 Statutory Audit of Compliance
                        With Notifying Taxpayers of Their Rights When
                         Requested to Extend the Assessment Statute



                                                                             Appendix V

                             Prior Audit Reports

The Treasury Inspector General for Tax Administration has previously performed 10 mandatory
audits in this subject area. These audits were:
Fiscal Year 2009 Statutory Audit of Compliance With Notifying Taxpayers of Their Rights When
Requested to Extend the Assessment Statute (Reference Number 2009-30-113, dated
August 3, 2009).
Fiscal Year 2008 Statutory Audit of Compliance With Notifying Taxpayers of Their Rights When
Requested to Extend the Assessment Statute (Reference Number 2008-40-127, dated
June 5, 2008).
Fiscal Year 2007 Statutory Audit of Compliance With Notifying Taxpayers of Their Rights When
Requested to Extend the Assessment Statute (Reference Number 2007-40-167, dated
August 31, 2007).
Fiscal Year 2006 Statutory Audit of Compliance With Notifying Taxpayers of Their Rights When
Requested to Extend the Assessment Statute (Reference Number 2006-40-163, dated
September 21, 2006).
Fiscal Year 2005 Statutory Audit of Compliance With Notifying Taxpayers of Their Rights When
Requested to Extend the Assessment Statute (Reference Number 2005-40-112, dated
July 21, 2005).
Fiscal Year 2004 Statutory Audit of Compliance With Notifying Taxpayers of Their Rights When
Requested to Extend the Assessment Statute (Reference Number 2004-40-108, dated
June 9, 2004).
Fiscal Year 2003 Statutory Audit of Compliance With Notifying Taxpayers of Their Rights When
Requested to Extend the Assessment Statute (Reference Number 2003-40-193, dated
September 11, 2003).
Improved Documentation Is Needed to Ensure Taxpayers Are Informed of Their Rights When
Requested to Extend the Assessment Statute (Reference Number 2002-40-175, dated
September 24, 2002).
Most Taxpayers Are Advised of Their Rights Before Signing an Agreement to Extend the
Assessment Statute of Limitations (Reference Number 2001-10-157, dated September 24, 2001).




                                                                                     Page 14
                        Fiscal Year 2010 Statutory Audit of Compliance
                        With Notifying Taxpayers of Their Rights When
                         Requested to Extend the Assessment Statute



Information Provided to Taxpayers When Requesting Extensions of the Assessment Statute of
Limitations Can Be Improved (Reference Number 2000-10-142, dated September 29, 2000).




                                                                                     Page 15
                            Fiscal Year 2010 Statutory Audit of Compliance
                            With Notifying Taxpayers of Their Rights When
                             Requested to Extend the Assessment Statute



                                                                                         Appendix VI

                     Case Review Results by Division

                                                                  Division 1
Compliance With Requirement to
Notify Taxpayers of Their Rights                 Appeals       LMSB       SB/SE      TE/GE 2    Totals
Number of Taxpayers’ Files That Did Not
Contain Adequate Documentation That                 **1**       **1********1*******1**               5
Taxpayers Were Informed of Their Rights


          Number of Taxpayers’ Files Reviewed:       21          16            71       3          111




Compliance With Requirement to                                     Division
Notify Representatives of Taxpayer
Rights                                           Appeals       LMSB       SB/SE      TE/GE      Totals
Number of Taxpayers’ Files That Did Not
Contain Adequate Documentation That
Taxpayers’ Representatives Were Provided With        *****************1************************
Copies of the Notification of the Taxpayers’
Rights


          Number of Taxpayers’ Files Reviewed:        *****************1************************




1
 No cases from the Wage and Investment Division occurred in our sample.
2
 Office of Appeals, Large and Mid-Size Business Division (LMSB), Small Business/Self-Employed Division
(SB/SE), and Tax Exempt and Government Entities Division (TE/GE).
                                                                                                   Page 16
